TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Additional Managerial Involvement
                     Is Needed to Promote Consistent Use
                         of Accuracy-Related Penalties



                                     September 11, 2009

                           Reference Number: 2009-30-124




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 11, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Managerial Involvement Is Needed to
                             Promote Consistent Use of Accuracy-Related Penalties
                             (Audit # 200830053)

 This report presents the results of our review to determine whether accuracy-related penalties are
 assessed during sole proprietor examinations in the Small Business/Self-Employed Division in
 accordance with Internal Revenue Service (IRS) policies and procedures. This audit is included
 in our Fiscal Year 2009 Annual Audit Plan coverage under the major management challenge of
 Tax Compliance Initiatives.

 Impact on the Taxpayer
 Promoting tax compliance fairly and equitably is of paramount importance to the IRS. Penalties
 are an important component of tax gap reduction efforts because they promote compliance with
 the tax laws by imposing an economic cost on taxpayers who choose not to comply voluntarily.
 Because we found that penalties were not always applied when warranted, the taxpaying public
 could perceive inequities in the examination process that penalize some but allow others to avoid
 penalties that otherwise should have been assessed.

 Synopsis
 Despite having authority under Internal Revenue Code Section 6662 to impose accuracy-related
 penalties, as well as layers of management controls to guide the penalty-setting process, the IRS
 is missing opportunities to use penalties to better promote accurate reporting among sole
 proprietors. We selected a statistically valid sample of 356 sole proprietor examinations that
                    Additional Managerial Involvement Is Needed to Promote
                         Consistent Use of Accuracy-Related Penalties



were closed in Fiscal Year 2007 and found that in 84 cases (24 percent), IRS procedures were
not followed in recommending accuracy-related penalties for assessment.
Although each case in our population met the minimum threshold (a tax understatement of
$5,000 or more) for considering the substantial understatement penalty, examiners were either
too lenient and did not recommend penalties that were warranted or had not documented case
files indicating that penalties were considered. Moreover, we found no documentation of
managerial involvement in 67 of the 105 penalty decisions, despite an Internal Revenue Manual
requirement for such involvement in cases where the substantial understatement penalty should
be considered.
Besides missing potential opportunities to enhance accurate reporting among sole proprietors,
closing the gap between the accuracy-related penalties assessed and those that should be assessed
would enhance revenue. To estimate the potential amount of substantial overstatement penalties
and interest the 84 sole proprietors were not assessed through April 30, 2009, we followed IRS
procedures for computing the substantial understatement penalty on the tax deficiencies, along
with the amount of interest owed on each penalty. Overall, we estimate the 84 sole proprietors in
our sample cases avoided penalties and interest totaling $354,539. When projected to our
population of 4,772 returns, we estimate that over a 5-year period sole proprietors would avoid
penalty and interest assessments totaling $24 million (plus or minus $9 million) that otherwise
should have been assessed. Our projection is based on a 95 percent confidence level and we
assumed that the IRS would not reconsider and subsequently abate any of the assessments.

Recommendations
We recommended that the Director, Examination, Small Business/Self-Employed Division,
should require 1) group managers to provide more specific written feedback to examiners on the
quality of their penalty determinations and incorporate the feedback into examiner midyear
progress reports and annual appraisals when appropriate and 2) Territory managers to use their
operational reviews to monitor and assess the written feedback given by group managers on the
quality of their examiners’ penalty determinations.

Response
IRS management agreed with our recommendations. The Director, Examination Policy,
Small Business/Self-Employed Division, will enhance the guidance regarding managerial
documentation of examiners’ penalty determinations in the document Examination Quality
Review System – Multi-Case Review Guidance for Field and Office Examination. The Director,
Examination Policy, will also include an article in the managerial guidance document
Examination Quality Review System – Performance Perspective that addresses the importance of
managerial documentation regarding penalty determinations. Finally, the Director, Examination

                                                                                                2
                    Additional Managerial Involvement Is Needed to Promote
                         Consistent Use of Accuracy-Related Penalties



Policy, will enhance the guidance on group operational reviews in the Examination Quality
Review System Field and Office Examination Quality Guide for Operational Reviews to include
review of the group manager’s oversight of examiners’ penalty determinations. However, IRS
management commented that our outcome measure calculation may be overstated because it did
not consider the effect of subsequent reconsideration and abatements of penalties.
Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
While we acknowledge that some penalties may be abated in the future, our outcome measure
was calculated only for returns that met the requirements for the substantial understatement
penalty. Our outcome measure estimates were based on the information available at the time of
our review, and the IRS response did not provide an estimate of the amount of substantial
understatement penalties that might be abated in future years. Also, publicly released data on
abatements, such as the IRS Data Book, does not separately report the amount of substantial
understatement penalties abated each year, so we have no reliable basis to calculate an estimate
of abated penalties.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                   3
                           Additional Managerial Involvement Is Needed to Promote
                                Consistent Use of Accuracy-Related Penalties




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Management Controls Are in Place to Guide Examiners Through
          the Penalty-Setting Process...........................................................................Page 2
          The Gap Between the Number of Accuracy-Related Penalties
          Assessed and the Number Warranted Is Considerable .................................Page 5
                    Recommendations 1 and 2: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Overview of Selected Penalties Applicable to
          Examinations of Sole Proprietors .................................................................Page 17
          Appendix VI – Management’s Response to the Draft Report ......................Page 19
         Additional Managerial Involvement Is Needed to Promote
              Consistent Use of Accuracy-Related Penalties




                     Abbreviations

FY             Fiscal Year
I.R.C.         Internal Revenue Code
IRM            Internal Revenue Manual
IRS            Internal Revenue Service
SB/SE          Small Business/Self-Employed Division
TIGTA          Treasury Inspector General for Tax Administration
                        Additional Managerial Involvement Is Needed to Promote
                             Consistent Use of Accuracy-Related Penalties




                                             Background

Our tax system is based on the public’s willingness to
                                                                          Despite numerous management
voluntarily prepare an accurate tax return, file it timely,                controls, the gap between the
and pay any tax due on time. To encourage voluntary                         number of accuracy-related
compliance, Congress placed numerous penalty                                penalties assessed and the
provisions in the tax laws for the Internal Revenue                           number that should be
Service (IRS) to administer through its Examination                          assessed is considerable.
Program and various other compliance programs.
Spread across the IRS’ four operating divisions, the Examination Program is one of the agency’s
largest compliance programs. Its examiners are primarily responsible for determining the correct
liabilities for taxpayers, including their liabilities for penalties. During an examination of a tax
return, such as one filed by a sole proprietor, examiners are required to consider a number of
penalties when recommending adjustments to tax liabilities. The numerous penalties generally
fall into two broad categories: delinquency and accuracy-related. Delinquency penalties are
intended to encourage the timely filing of income tax and information returns, while
accuracy-related penalties promote the preparation and submission of complete and correct
information on tax returns.
According to our analysis of underlying information from the 2008 IRS Data Book,1 the IRS
assessed individual taxpayers with 2,881,085 delinquency penalties and 343,295 accuracy-
related penalties. Additional information on various penalties within these two broad categories
is included in Appendix V.
This review was performed in the IRS Small Business/Self-Employed (SB/SE) Division
Headquarters Office in New Carrollton, Maryland, during the period October 2008 through
April 2009. Except for auditing IRS databases to validate the accuracy and reliability of the
information, 2 this performance audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.



1
  The IRS Data Book is published annually by the IRS and contains statistical tables and organizational information
on a fiscal year basis.
2
  The accuracy of the data was verified to individual recipients during our case review.
                                                                                                            Page 1
                          Additional Managerial Involvement Is Needed to Promote
                               Consistent Use of Accuracy-Related Penalties




                                       Results of Review

Despite numerous management controls to guide the penalty-setting process, the gap between the
number of accuracy-related penalties assessed and the number warranted is considerable. As a
result, we are recommending additional managerial involvement in the administration of these
penalties.

Management Controls Are in Place to Guide Examiners Through the
Penalty-Setting Process
Ultimately, the IRS relies on examiners and their group managers to properly consider and assess
penalties during examinations. To assist examiners and group managers in meeting these
responsibilities, the IRS has an array of policies, procedures, and techniques (management
controls) that are in line with the Government Accountability Office’s Standards for Internal
Control in the Federal Government.
At the agency level, there is a broad policy statement on penalties that was revised in June 2004
to provide guidance for examiners, as well as other IRS personnel, and included overall goals for
implementing the policy. The policy statement underscores the role penalties play in promoting
compliance with and fairness of the tax system by imposing an economic cost on those who do
not voluntarily comply with tax laws. In implementing the revised policy, the IRS provided an
agencywide training session on penalty administration and augmented the training by developing
a comprehensive audit technique guide and making it available to examiners throughout the
agency. Figure 1 provides an overview of the goals reflected in the IRS’ penalty policy.
                               Figure 1: Goals of the IRS Penalty Policy

                Goals                                                  Policy Overview
 Enhance and encourage compliance.     Penalties provide an important tool to promote compliance and fairness in the tax
                                       system by increasing the costs for those who do not timely and accurately comply
                                       with the tax laws.
 Curb the use of abusive tax           Accuracy-related penalties combat the undermining effect abusive transactions have
 transactions.                         on the tax system.
 Promote sound and efficient tax       Penalties may occasionally be waived as part of a strategy to encourage prompt
 administration.                       resolution of tax issues.
 Promote consistency in applying       The IRS Office of Penalty Administration reviews and approves changes to its
 penalties.                            Penalty Handbook, which all agency employees are to use and follow.
 Demonstrate fairness of the tax       Provide taxpayers with opportunities to provide reasons why penalties should not be
 system.                               assessed by considering evidence in favor of not assessing penalties.
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of IRS Policy Statement 20-1.

                                                                                                                    Page 2
                    Additional Managerial Involvement Is Needed to Promote
                         Consistent Use of Accuracy-Related Penalties



At the division level, Quality Assurance staffs review samples of examinations and assess the
degree to which examiners comply with standards, including those related to penalties. The
reviews serve as a mechanism for measuring and evaluating the quality of examinations and
penalty determinations, communicating areas of concern up the chain of command, identifying
potential training needs, and improving work processes. In addition to reviews by Quality
Assurance staffs, mid-level managers may evaluate how well examiners are developing penalty
issues during their operational reviews. As conducted by Examination function Territory
managers, operational reviews are performed on group managers and their respective teams at
least annually to ensure work is being done in conformance with procedures.
At the group level, the Internal Revenue Manual (IRM) serves as the official compilation of
procedures and detailed instructions that govern examinations and the penalty-setting process.
According to the IRM, an examiner’s primary responsibility is to determine the correct income
tax liability during an examination. However, they are also required to document examination
case files with the factors considered in determining a taxpayer’s liability for applicable
penalties.
To assist examiners in considering the penalties that could apply to a return under examination,
the SB/SE Division developed a Penalty Approval Form, shown in Figure 2 below, that is
required to be included in the workpapers for every examination.




                                                                                           Page 3
                    Additional Managerial Involvement Is Needed to Promote
                         Consistent Use of Accuracy-Related Penalties



                         Figure 2: IRS Penalty Approval Form




    Source: SB/SE Division Workpaper 300-1.1, dated May 2007.

Besides documenting penalty decisions, the IRM requires group managers to review the
examiner’s decision not to assert the substantial understatement penalty when the criteria of
Internal Revenue Code (I.R.C.) Section 6662(d) is met, including the applicable exception to the
penalty. This is an important control component in the penalty-setting process because group

                                                                                          Page 4
                      Additional Managerial Involvement Is Needed to Promote
                           Consistent Use of Accuracy-Related Penalties



managers are responsible for the quality of work performed by the examiners they supervise. To
ensure that examiners’ work is meeting acceptable quality standards, including penalty
considerations, SB/SE Division group managers use a variety of other techniques to ensure
quality examinations are performed. These other techniques include observing and discussing
examination work with examiners, reviewing in-process and closed examinations, and providing
feedback through SB/SE Division’s Embedded Quality Review System. 3

The Gap Between the Number of Accuracy-Related Penalties
Assessed and the Number Warranted Is Considerable
Despite having authority under I.R.C. Section 6662 to impose accuracy-related penalties, as well
as numerous management controls to guide the penalty-setting process, the IRS is missing
opportunities to use penalties to better promote accurate reporting among sole proprietors. As
shown in Figure 3, we selected a statistically valid sample of 356 sole proprietor returns from a
population of 4,772 sole proprietor returns with examinations closed in Fiscal Year (FY) 2007.
All returns in our population met the minimum threshold (a tax understatement of $5,000 or
more for an individual return) for considering the substantial understatement penalty. We
reviewed each selected return using the IRS Integrated Data Retrieval System 4 and eliminated
175 returns that had an accuracy-related penalty assessed by the examiner. We then ordered the
administrative case files (examination workpapers) for the 181 returns that did not have an
accuracy-related penalty assessed and were able to obtain workpapers for 105 returns. For these
105 returns, we found 84 (24 percent of the 356 returns sampled) in which IRS procedures were
not followed in recommending accuracy-related penalties for assessment.




3
  The Embedded Quality Review System allows field managers to provide timely feedback to individual employees
through performance case reviews.
4
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                      Page 5
                       Additional Managerial Involvement Is Needed to Promote
                            Consistent Use of Accuracy-Related Penalties



                     Figure 3: Review of Accuracy-Related Penalties for
                       Sole Proprietor Examinations Closed in FY 2007

                                                                                              Percentage
                                                                                     Number   of Sample
 Number of sole proprietor returns selected for sample.                               356       100 %

 Sole proprietor returns with an accuracy-related penalty assessed by examiner.       175        49 %

 Sole proprietor returns without an accuracy-related penalty with examination
                                                                                      181        51%
 workpapers ordered by the TIGTA.

 Sole proprietor returns without an accuracy-related penalty with examination
                                                                                      105        29%
 workpapers received and reviewed by the TIGTA.

 Sole proprietor returns without an accuracy-related penalty reviewed by the TIGTA
                                                                                       84        24%
 in which IRS procedures were not followed.

 Sole proprietor returns without an accuracy-related penalty reviewed by the TIGTA
                                                                                       21         6%
 in which IRS procedures were followed.
Source: TIGTA analysis of 356 sole proprietor examinations closed in FY 2007.

Although each case in our population met the minimum threshold for considering the substantial
understatement penalty, examiners were either too lenient and did not recommend penalties that
were warranted or had not documented case files indicating that penalties were considered. The
majority of cases we reviewed did not entail complicated tax law issues and did not appear to
meet any of the IRM exceptions that allow for the abatement of an accuracy-related penalty.
Except for a few instances, IRS officials who also reviewed a large group of our case reviews
agreed with our conclusions.
We also found no documentation of managerial involvement in 67 of the penalty decisions
(19 percent of the 356 returns sampled and 64 percent of the 105 case files reviewed) despite an
SB/SE Division requirement of such involvement in cases where adjustments warrant the
substantial understatement penalty. For example, we found 30 cases for which well over
$10,000 of income tax was not reported and there was no evidence of managerial involvement.
The absence of this involvement in these cases is of particular concern because the IRS requires
more detailed documentation of managerial involvement in examinations involving unreported
income of $10,000 or more. At a minimum, the documentation in these cases should show that
the manager and examiner jointly developed an action plan to obtain and document potential
fraudulent activities that may be needed in a referral to the IRS Criminal Investigation Division
for possible criminal prosecution.




                                                                                                  Page 6
                       Additional Managerial Involvement Is Needed to Promote
                            Consistent Use of Accuracy-Related Penalties



group managers provided performance feedback to 21 examiners involved in 25 of the cases we
reviewed and found considerable evidence that suggests the need for group managers to take
better advantage of written feedback to hold examiners more accountable for their penalty
determinations. Although all 21 examiners failed to follow IRS procedures in considering
accuracy-related penalties, 6 (29 percent) of the 21 examiners had not received any narrative
feedback on the importance of making quality penalty determinations in workload reviews,
midyear progress reports, and annual performance appraisals they received in the Embedded
Quality Review System in FY 2008.
Although the performance management process for group managers is somewhat different from
the process for examiners, it can be used in much the same way to hold managers accountable for
results. One difference is that group managers develop commitments at the beginning of the
fiscal year that supplement their critical job responsibilities and can be specifically tailored to
meet improvement opportunities. Another important difference is that SB/SE Division Territory
managers are responsible for managing and evaluating the performance of group managers.
Among the tools used by Territory managers to meet this responsibility are operational reviews,
which can be used to better ensure that group managers are providing specific written feedback
to examiners on the quality of their penalty determinations.
Promoting tax compliance fairly and equitably is of paramount importance to the IRS. Penalties
are an important component of tax gap reduction efforts because they promote compliance with
the tax laws by imposing an economic cost on taxpayers who choose not to comply voluntarily.
Because we found that penalties were not always applied when warranted, the taxpaying public
could perceive inequities in the examination process that penalize some but allow others to avoid
penalties that otherwise should have been assessed.
In addition to enhancing accurate reporting among sole proprietors, closing the gap between the
number of accuracy-related penalties assessed and the number that should be assessed would
enhance revenue. To estimate the potential amount of substantial understatement penalties and
interest the 84 sole proprietors were not assessed through April 30, 2009, we followed IRS
procedures for computing the substantial understatement penalty on the tax deficiencies, along
with the amount of interest owed on each penalty. Overall, we estimate the 84 sole proprietors in
our sample cases were not assessed penalties and interest totaling $354,539. When projected to
our population of 4,772 cases, we estimate that 1,126 sole proprietors (plus or minus 203 sole
proprietors) avoided penalty and interest assessments of $4.8 million per year (plus or minus
$1.8 million). Our projection is based on a 95 percent confidence level and assumes that the IRS
will not reconsider and abate any of the penalties. 7 When projected over a 5-year period, we

7
 The IRS Taxpayer Advocate’s 2008 Annual Report to Congress noted that 11 percent of all accuracy-related
penalties assessed were abated after several years, comprising 37 percent of the dollars assessed. However, this
amount includes both individual and corporate examinations with any amount assessed, while our sample included
only sole proprietors with more than $5,000 assessed. Also, our outcome measure only includes the substantial
understatement accuracy-related penalty.
                                                                                                          Page 8
                    Additional Managerial Involvement Is Needed to Promote
                         Consistent Use of Accuracy-Related Penalties



estimate with a 95 percent degree of confidence that sole proprietors would avoid penalty and
interest assessments totaling $24 million (plus or minus $9 million) that otherwise should have
been assessed.

Recommendations
To promote additional managerial involvement in the administration of penalties, we recommend
that the Director, Examination, SB/SE Division, require:
Recommendation 1: Group managers to provide more specific written feedback to
examiners on the quality of their penalty determinations and incorporate the feedback into
examiner midyear progress reports and annual performance appraisals when appropriate.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination Policy, SB/SE Division, will enhance the guidance regarding
       managerial documentation of examiners’ penalty determinations included in the
       document Examination Quality Review System – Multi-Case Review Guidance for Field
       and Office Examination. The Director, Examination Policy, will also include an article in
       the managerial guidance document Examination Quality Review System – Performance
       Perspective that addresses the importance of managerial documentation regarding penalty
       determinations.
Recommendation 2: Territory managers to use their operational reviews to monitor and
assess the written feedback given by group managers on the quality of their examiners’ penalty
determinations.
       Management’s Response: IRS management agreed with this recommendation. The
       Director, Examination Policy, SB/SE Division, will enhance the guidance on group
       operational reviews in the Examination Quality Review System Field and Office
       Examination Quality Guide for Operational Reviews to include review of the group
       manager’s oversight of examiners’ penalty determinations.
       Although agreeing with our recommendations, IRS management commented that our
       outcome measure calculation may be overstated because it did not consider the effect of
       subsequent reconsideration and abatements of penalties.
Office of Audit Comment: As noted in Appendix IV, our outcome measure was calculated
only for returns that met the requirements for the substantial understatement penalty. While we
acknowledge that some of these penalties could be abated in the future, our outcome measure
estimates were based on information available at the time of our review, and the IRS response
did not provide an estimate of the amount of substantial understatement penalties that might be
abated in future years. Also, publicly released data on abatements, such as the IRS Data Book,
does not separately report the amount of substantial understatement penalties abated each year,
so we have no reliable basis to calculate an estimate of abated penalties.

                                                                                             Page 9
                        Additional Managerial Involvement Is Needed to Promote
                             Consistent Use of Accuracy-Related Penalties



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether accuracy-related penalties are
assessed during sole proprietor examinations in the SB/SE Division in accordance with IRS
policies and procedures. To accomplish our objective, we:
I.      Selected a statistically valid sample of 356 closed examined sole proprietorship returns
        using a confidence level of 95 percent, a precision rate of plus or minus 5 percent, and an
        expected error rate of 50 percent. The returns were selected from the population of
        4,772 sole proprietor returns meeting our criteria on the Audit Information Management
        System 1 Closed Case data file maintained on the TIGTA’s Data Center Warehouse. The
        selection criteria included examinations that were closed as “agreed” between October 1,
        2006, and September 30, 2007, had a understatement of tax meeting the minimum
        threshold of $5,000 for considering the substantial understatement penalty, and involved
        non-farm businesses with total gross receipts of $100,000 or more with total positive
        income of less than $200,000. We conducted limited data validation testing by matching
        the universe of sole proprietor examinations on the Audit Information Management
        System to the IRS Data Book 2 and selecting a judgmental 3 sample of 20 examinations on
        the Audit Information Management System and verifying selected taxpayer information
        to the Integrated Data Retrieval System. 4
II.     Conducted research using the Integrated Data Retrieval System on the sample identified
        in Step I to identify the returns that appeared to meet the criteria for the imposition of
        accuracy-related penalties (at least $5,000 in additional tax assessed) but do not have a
        Transaction Code 240 with a Reference Number 680 on the taxpayer’s account
        (indicating the imposition of an accuracy-related penalty). Using the Integrated Data
        Retrieval System, we determined that the accuracy-related penalty was applied in 175 of
        the examinations, while the remaining 181 examinations had no accuracy-related penalty
        applied. We requested the examination workpapers for the 181 returns and any related
        tax return years and received workpapers for 105 returns.


1
  A computer system used by the SB/SE Division Examination Operations function and others to control returns,
input assessments/adjustments to the Master File, and provide management reports.
2
  The IRS Data Book provides information on returns filed and taxes collected, enforcement, taxpayer assistance, the
IRS budget and workforce, and other selected activities.
3
  Judgmental sampling was used because of limited resources and time available to complete the audit in a
reasonable time period.
4
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 10
                       Additional Managerial Involvement Is Needed to Promote
                            Consistent Use of Accuracy-Related Penalties



III.    Reviewed the examination workpapers for the 105 closed sole proprietor returns to
        determine whether examiners followed IRS procedures in recommending accuracy-related
        penalties for assessment. We estimated the potential revenue that could be generated over
        a 5-year period if examiners properly considered and assessed penalties by applying the
        error rates and penalty amounts determined in the cases reviewed against examinations in
        our population having similar deficiencies and characteristics, but no accuracy-related
        penalties applied.
IV.     Evaluated the adequacy of controls for ensuring accuracy-related penalties are properly
        considered and applied during sole proprietor examinations by documenting the
        applicable I.R.C. sections, Treasury Regulations, IRM (policy and procedural) sections,
        management directives, examiner training materials, and IRS public announcements and
        notices that provide the authority and reasons for assessing the penalty.
V.      Used the results from FYs 2007 and 2008 quality reviews (National Quality Review
        System 5 and Embedded Quality Review System) 6 to identify weaknesses in the use of
        accuracy-related penalties and assess the effectiveness of corrective actions taken in
        response to the weaknesses identified.
VI.     Evaluated the extent of training that group managers and examiners received on
        considering and applying accuracy-related penalties by reviewing the FYs 2007 and 2008
        training records of the managers and examiners included in our case reviews.
VII.    Assessed how well Territory managers are holding group managers accountable for
        ensuring the examiners they supervise are properly considering accuracy-related penalties
        by evaluating FY 2008 operational reviews, midyear appraisals, and annual appraisals
        they provided to the group managers for cases included in our review.
VIII.   Assessed how well group managers are holding examiners accountable for properly
        considering accuracy-related penalties by evaluating the FY 2008 workload reviews
        (on-the-job visits, etc.), midyear appraisals, and annual appraisals they provided to the
        examiners for cases included in our review.
IX.     Determined the number of accuracy-related penalties that were assessed in sole proprietor
        examinations in FYs 2006, 2007, and 2008 by analyzing the IRS Statistics of Income data
        files that support the number and amount of these penalties in the corresponding IRS
        Data Books.
X.      Assessed the status of ongoing changes to improve the administration of penalties by
        interviewing SB/SE Division management and program analysts in its Offices of


5
  The National Quality Review System conducts closed case reviews and provides quality measurement results for
the SB/SE Division.
6
  The Embedded Quality Review System allows field managers to provide timely feedback to individual employees
through performance case reviews.
                                                                                                      Page 11
            Additional Managerial Involvement Is Needed to Promote
                 Consistent Use of Accuracy-Related Penalties



Examination Policy and Penalties and Interest to identify ongoing changes, such as policy
and procedural changes, examiner training, stakeholder outreach activities, and IRS
public notices and announcements that are aimed at enhancing administration of
penalties. We assessed the effectiveness of any ongoing changes identified.




                                                                                 Page 12
                   Additional Managerial Involvement Is Needed to Promote
                        Consistent Use of Accuracy-Related Penalties



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Debra Mason, Lead Auditor
Earl Charles Burney, Senior Auditor
William Tran, Senior Auditor
Ali Vaezazizi, Auditor




                                                                                      Page 13
                  Additional Managerial Involvement Is Needed to Promote
                       Consistent Use of Accuracy-Related Penalties



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 14
                    Additional Managerial Involvement Is Needed to Promote
                         Consistent Use of Accuracy-Related Penalties



                                                                                  Appendix IV

                                 Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $4.8 million per year (plus or minus $1.8 million), or
    $24 million (plus or minus $9 million), over 5 years. The potential revenue increase is
    related to 1,126 sole proprietors who were not assessed an accuracy-related penalty that was
    warranted (see page 5). In making the projection, we assumed that the IRS would not
    reconsider and subsequently abate any of the assessments.

Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with closing the gap between the number
of accuracy-related penalties assessed and the number warranted in sole proprietor examinations,
we:
    1. Analyzed a statistically valid sample of 356 examinations from a population of
       4,772 returns with the potential for accuracy-related penalties closed in FY 2007 for
       which sole proprietors agreed with the IRS that they understated their tax liabilities by
       more than $5,000 but avoided an accuracy-related penalty.
    2. Used the sample occurrence rate (of missed opportunities for applying the
       accuracy-related penalty) of 23.60 percent (84 divided by 356) from the results of our
       case review samples to project that as many as 1,126 (23.60 percent multiplied by 4,772)
       sole proprietors were not assessed an accuracy-related penalty that was warranted, plus or
       minus 203 sole proprietors.
    3. Followed the IRS procedures for computing the substantial understatement penalty
       related to the deficiencies owed to calculate that accuracy-related penalties of $307,440
       were not assessed on the 84 returns.
    4. Used IRS computer programs with the applicable Federal interest rate to calculate that
       $47,099 of interest would have been owed on the penalties for the 84 returns through
       April 30, 2009.
    5. Used variable sampling techniques based on the amount of penalties and interest that
       should have been assessed for the 84 cases ($354,539) to determine the estimated amount

                                                                                           Page 15
                Additional Managerial Involvement Is Needed to Promote
                     Consistent Use of Accuracy-Related Penalties



    of penalties and interest per case to be $4,221 ($354,539 divided by 84). Applied the per
    case estimate to the projected number of sole proprietors not assessed the penalty to
    determine that the amount of missed penalty and interest opportunities for our population
    was $4.8 million per year ($4,221 multiplied by 1,126), plus or minus $1.8 million.
6. Shared our sampling methodology with an outside statistical expert who confirmed the
   accuracy of our methodology and projection.
.




                                                                                     Page 16
                         Additional Managerial Involvement Is Needed to Promote
                              Consistent Use of Accuracy-Related Penalties



                                                                                                           Appendix V

         Overview of Selected Penalties Applicable to
              Examinations of Sole Proprietors

This appendix provides a brief overview of some common penalties examiners should consider
and possibly apply during a sole proprietor examination. There are relief standards that can be
invoked to avoid the imposition of the penalties below. The I.R.C., for example, generally
provides that penalties can be avoided if there was reasonable cause and the sole proprietor acted
in good faith.

                Selected Penalties Considered During a Sole Proprietor Examination


                                                   Delinquency Penalties
        Title              I.R.C. Section(s)                                        Overview
    Failure to File            6651(a)(1)            If an examination results in a tax deficiency and the tax return was not
                                                     filed by the prescribed due date (or extended due date), a failure to file
                                                     penalty can be applied on the tax deficiency from the tax return due date
                                                     (or extended due date) until paid or until the maximum penalty is
                                                     applied.
    Failure to File      6721, 6722, 6723, 6679,     Sole proprietors are required to file certain information returns and/or
 Information Returns       6038(b), 6038A(d)         furnish certain statements to payees under various sections of the I.R.C.
                                                     Information return reporting penalties can involve amounts ranging from
                                                     $50 up to $250,000.

                                               Accuracy-Related Penalties

     Negligence                 6662(c)              Negligence includes any failure to make a reasonable attempt to comply
                                                     with the provisions of the tax law, exercise ordinary and reasonable care
                                                     in tax return preparation, or keep adequate books and records. The
                                                     penalty is 20 percent of the portion of the underpayment attributable to
                                                     negligence.
    Substantial                 6662(d)              The substantial understatement penalty may be applied when an
   Understatement                                    understatement exceeds $5,000 or 10 percent of the tax required to be
                                                     shown for the tax year, whichever is greater. The penalty is equal to
                                                     20 percent of the underpayment of tax attributable to the understatement.
 Substantial Valuation          6662(e)              The substantial valuation misstatement exists if the value or adjusted
    Misstatement                                     basis of any property claimed on a return is 150 percent or more of the
                                                     amount determined to be the correct amount of such value or adjusted
                                                     basis. The penalty is 20 percent of the underpayment of tax.



                                                                                                                      Page 17
                        Additional Managerial Involvement Is Needed to Promote
                             Consistent Use of Accuracy-Related Penalties



   Gross Valuation             6662(h)           The gross valuation misstatement penalty exists if the value or adjusted
    Misstatement                                 basis of any property claimed on a return is 200 percent or more of the
                                                 corrected amount; or if the price for any property or service (or for the
                                                 use of property) claimed on a return is 400 percent or more (or
                                                 25 percent or less) of the amount determined under I.R.C. Section 482 to
                                                 be the correct price; or if the net section 482 adjustment exceeds the
                                                 lesser of $20,000,000 or 20 percent of the taxpayer’s gross receipts. The
                                                 penalty is 40 percent of the underpayment of tax.
        Fraud                  6663(a)           If any underpayment of tax is due to fraud, a penalty may be imposed
                                                 equal to 75 percent of the portion of the underpayment due to fraud.
                                                 Although the I.R.C. does not define the term fraud, most courts define
                                                 fraud as the “intent to evade tax.”

Source: TIGTA analysis of selected sections of the I.R.C.




                                                                                                                 Page 18
     Additional Managerial Involvement Is Needed to Promote
          Consistent Use of Accuracy-Related Penalties



                                                  Appendix VI

Management’s Response to the Draft Report




                                                         Page 19
Additional Managerial Involvement Is Needed to Promote
     Consistent Use of Accuracy-Related Penalties




                                                    Page 20
Additional Managerial Involvement Is Needed to Promote
     Consistent Use of Accuracy-Related Penalties




                                                    Page 21
